                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: A04040020



          We received an allegation of plagiarism involving former collaborators. Specifically, the
          Complainant alleged that an NSF proposal1 submitted by the Subject contains text authored by
          the Complainant, which he provided to the Subject for an earlier collaborative proposal.2

          Our review indicated that the text in question is a single paragraph in the Facilities & Equipment
          section of the proposal. The text was part of a proposal on which the Subject and the
          Complainant were co-PIS;with slight modifications, the text was reused in a proposal on which
          the Subject is the sole PI. As discussed in our September 2001 Semiannual Report to Congress
          (p. 41), "Without a specific prohibition, we generally conclude that it is accepted practice for
          former colleagues to make subsequent use of materials and ideas shared within a collaboration."

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
